VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                     Department of 

                                                                    Veterans Affairs 

                                                                           Audit of 

                                                                        the Pharmacy 

                                                                    Reengineering Software 

                                                                     Development Project 





                                                                                    December 23, 2013
                                                                                     12-04536-308
             ACRONYMS AND ABBREVIATIONS 

CIO          Chief Information Officer
iEHR         Integrated Electronic Health Record
IOC          Initial Operating Capability
IT           Information Technology
MOCHA        Medication Order Checking Health Care Application
OIG          Office of Inspector General
OIT          Office of Information and Technology
OMB          Office of Management and Budget
PECS         Pharmacy Enterprise Customization System
PMAS         Project Management Accountability System
PRE          Pharmacy Reengineering
VA           Veterans Affairs




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                             Telephone: 1-800-488-8244 

                            Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                   Report Highlights: Audit of VA’s
                   Pharmacy Reengineering Software
                   Development Project

Why We Did This Audit                          needed prior to such a transfer so that iEHR
                                               is not compromised by the same challenges.
In October 2009, the Office of Information
and Technology (OIT) restarted the             What We Recommended
Pharmacy Reengineering (PRE) project
under      the     Project    Management       We recommended the Executive in Charge
Accountability System (PMAS). PRE is           and Chief Information Officer (CIO) ensure
critically needed to help address patient      all of the time used, including the time on
safety issues associated with adverse drug     the initial operating capability phase, to
events. Accordingly, we evaluated the          complete each remaining PRE increment is
effectiveness of OIT’s management of the       reported and monitored; ensure adequate
PRE project.                                   oversight and controls, including the
                                               planning guidance, staffing, and cost and
What We Found                                  schedule tracking needed to deliver
                                               functionality on time and within budget; and
Although some progress has been made,          establish a plan for future funding of PRE
OIT has not been effective in keeping the      until iEHR is decided.
PRE project on target in terms of schedule
and cost, as well as the functionality         Agency Comments
delivered. Deployed PRE functionality has
improved patient safety. However, project      The CIO agreed with our recommendations
managers have struggled to deploy PRE          and provided an acceptable corrective action
increments in a timely manner. Project         plan. We will assess OIT’s corrective
managers were also unable to provide           actions in the future.
reliable costs at the increment level. OIT
restarted PRE at a time when PMAS had not
evolved to provide the oversight needed to
ensure project success.

As such, PRE management was challenged
in keeping the project on track.
Consequently, OIT is at an increased risk of             LINDA A. HALLIDAY
not completing PRE on time and within                Assistant Inspector General
budget. Moreover, the future of Pharmacy              for Audits and Evaluations
Reengineering is uncertain due to potential
plans to transfer funding and remaining
development to the Integrated Electronic
Health Record (iEHR) project in FY 2014.
Stronger accountability over cost, schedule,
and scope for the remaining development is



                                                                                          i
                                           TABLE OF CONTENTS

Introduction......................................................................................................................................1  
Results and Recommendations ........................................................................................................2
 
    Finding                Progress Made, But Challenges Remain in Pharmacy Reengineering
                           Management ........................................................................................................2
 
                                                                                                                                           
                           Recommendations ..............................................................................................12

Appendix A                 Background ........................................................................................................16
 
Appendix B                 Scope and Methodology.....................................................................................18

Appendix C                 Status of PRE Increments ..................................................................................19

Appendix D                 Executive in Charge and Chief Information Officer Comments .......................23

Appendix E                 Office of Inspector General Contact and Staff Acknowledgments ...................28

Appendix F                                                                                                                                   
                           Report Distribution ............................................................................................29





                                                                                                                                                  ii
                                 Audit of VA’s Pharmacy Reengineering Software Development Project



                    INTRODUCTION
Objective           We conducted this audit to determine whether the Office of Information and
                    Technology (OIT) has effectively managed the Pharmacy Reengineering
                    (PRE) software development project to provide pharmacy stakeholders with
                    agreed-upon functionality while meeting cost and schedule goals.

History of PRE      VA initially launched PRE in March 2003 with scheduled completion by
                    September 2008 at an estimated cost of approximately $144 million. PRE
                    would replace VA’s suite of obsolete pharmacy applications with an
                    improved system designed to meet VA’s current and future business needs.
                    Initial PRE increments would address patient safety issues by providing
                    clinical decision support tools to reduce medication errors and adverse drug
                    events. In subsequent increments, PRE would address items such as
                    pharmaceutical inventory management, dispensing, and clinical monitoring.

                    In FY 2009, VA found a significant number of its information technology
                    (IT) development projects were behind schedule or over budget. VA
                    temporarily halted 45 IT development projects, including PRE, for not
                    meeting cost and schedule goals. In June 2009, the Secretary of Veterans
                    Affairs announced that VA would implement the Project Management
                    Accountability System (PMAS) to improve management of its IT
                    development projects and stop the succession of project failures. PRE could
                    not resume development until managers created a project restart plan that
                    met PMAS requirements.

                    In October 2009, the then Assistant Secretary for Information and
                    Technology approved the restart of PRE. The project completion date was
                    scheduled for 2019. According to VA’s Exhibit 300 submitted to the Office
                    of Management and Budget in September 2009, the total cost of PRE had
                    risen to approximately $164 million. An Exhibit 300 describes the
                    justification, planning, and implementation of an individual IT capital asset
                    included in an agency’s IT investment portfolio. It also provides information
                    on resources, timelines, activities, risks, and performance of the investment
                    or IT development project.

Other               The following appendixes provide additional information.
Information
                    	 Appendix A provides pertinent background information.
                    	 Appendix B provides details on our scope and methodology.
                    	 Appendix C provides a status of the increments included in PRE.
                    	 Appendix D provides VA management comments on a draft of this
                       report.



VA Office of Inspector General                                                                  1
                                 Audit of VA’s Pharmacy Reengineering Software Development Project



                    RESULTS AND RECOMMENDATIONS
Finding             Progress Made, But Challenges Remain in Pharmacy
                    Reengineering Management

                    OIT has not been effective in managing the restarted PRE project to meet
                    mission needs. OIT has deployed limited PRE functionality to date,
                    including automated alerts for clinicians to verify prescriptions before
                    ordering them to help improve patient safety. However, project managers
                    have struggled to deploy PRE functionality to VA’s medical facilities in a
                    timely manner. For example, three of the initial PRE increments took from
                    approximately 19 months to 46 months to achieve national deployment and
                    one increment deployment remains incomplete. In addition, project
                    managers have been unable to provide reliable cost information at an
                    increment level for the PRE increments delivered to date.

                    OIT restarted PRE at a time when PMAS had not evolved to a point where it
                    could provide the oversight needed to ensure project success. PRE project
                    management was challenged by a lack of guidance, planning, staffing,
                    schedule tracking, and project status reviews. Because of these project
                    management challenges, OIT is at an increased risk of not completing PRE
                    and providing the agreed-upon patient safety functionality on time and
                    within budget by 2019 as planned. Moreover, the future of overall Pharmacy
                    Reengineering remains uncertain due to potential plans to transfer funding
                    and development of all remaining functionality to the Integrated Electronic
                    Health Record (iEHR ) project in FY 2014.

The PMAS            PRE development and deployment was restarted under PMAS, which was
Concept             created in June 2009 to stop VA’s succession of IT development failures.
                    PMAS represented a major shift from the way VA historically planned and
                    managed IT development projects. The focus under PMAS for IT
                    development projects shifted to incremental development.

Some PRE            Under PMAS, the PRE management team made progress developing and
Functionality       implementing some of the planned PRE functionality. For example, the
Delivered
                    team has deployed the following functionality throughout VA’s medical
                    facilities:

                       Non-dosing medication order checks
                       Drug monographs
                       Customized medication order checks

                    In spite of this progress, a great deal of functionality remains to be deployed.



VA Office of Inspector General                                                                     2
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


Non-Dosing          VA’s clinicians and pharmacists have been receiving PRE alerts on potential
Medication          harmful drug interactions and duplicate therapies since the first increment of
Order Checks
                    the Medication Order Checking Health Care Application (MOCHA) was
                    deployed in March 2012. Medication order checks are system-generated
                    alerts intended to safeguard patients by providing relevant drug-related
                    information for medical personnel to consider before they place orders for
                    patients.

                    Drug interaction alerts help medical personnel identify and prevent harmful
                    interactions between the medications they are ordering and other medications
                    their patients are using. Similarly, duplicate therapy alerts help medical
                    personnel prevent unintentional drug duplication. These alerts warn medical
                    personnel when a patient is already receiving the same exact medication or a
                    different drug in the same therapeutic category.

Drug                VA clinicians and pharmacists have had access to PRE drug monographs
Monographs          since the first increment of MOCHA was deployed in March 2012. The
                    monographs provide drug information pertaining to drug interactions,
                    including descriptions of the interactions, severity levels, potential clinical
                    effects, and recommendations for monitoring and managing the interactions.
                    The monographs serve as additional tools to aid medical personnel in
                    protecting patient safety as they place medication orders for patients.

Customized          Since May 2011 when the first increment of the Pharmacy Enterprise
Medication          Customization System (PECS) was deployed, personnel from the Pharmacy
Order Checks
                    Benefits Management Services have been able to customize the drug
                    information maintained by First Databank, a commercial off–the–shelf
                    database to improve medication order checks. First Databank maintains
                    clinical information on drugs approved by the Food and Drug
                    Administration. PECS allows VA pharmacists to tailor the information to
                    better fit the profiles of veterans receiving healthcare at VA medical
                    facilities.

                    For example, the commercial database currently generates a level 2 alert for
                    the concurrent use of capecitabine and warfarin. The alert states that patients
                    older than 60 are predisposed to this drug interaction, which could cause
                    internal bleeding. Because VA treats a significant number of older patients,
                    Pharmacy Benefits Management Services personnel are in the process of
                    changing this alert from a level 2 to a more severe level 1 alert.

Improved            With this functionality, PRE has helped VA improve patient safety, which
Patient Safety      has been a primary focus of the software development project. The total
                    number of adverse drug events reported by VA declined from FY 2010 to
                    FY 2012.




VA Office of Inspector General                                                                   3
                                   Audit of VA’s Pharmacy Reengineering Software Development Project


                    The table below compares statistics for FY 2010 and FY 2012.

Table 1
                                 Summary Statistics of VA’s Adverse Drug Events

                             Adverse Drug Events                         FY 2010           FY 2012
                      Requiring Hospitalizations                            144                85
                      Requiring Interventions To Prevent
                                                                             61                49
                      Impairments or Disabilities
                      Threatening Lives                                      27                27
                      Resulting in Disabilities                                3                0
                      Resulting in Death                                       4                3
                        Total                                               239               164
                      Source: VA OIG based on data from the VA Adverse Drug Event Reporting System

                    In addition, project plans call for additional medication order checks, such as
                    maximum single dosage checks and daily dosage range checks, to be
                    deployed in future incremental deliveries of PRE functionality. Pharmacy
                    Benefits Management Services personnel expect these dosing medication
                    order checks to further improve patient safety.

Deployment          Project managers have not deployed incremental PRE functionality to all
Delays Pose         VA’s medical facilities in a timely manner. According to the PMAS Guide
Schedule
Challenges
                    published by OIT in March 2010, IT projects were required to deliver
                    complete and “deployable” new functionality in cycles of 6 months or less.
                    However, this version of the PMAS Guide was silent concerning how long IT
                    projects could take to actually fully deploy new functionality to all planned
                    sites. Consequently, PRE project managers were only required to deliver
                    deployable functionality to one site within 6 months.

                    Although PRE project managers were able to deliver incremental
                    functionality at one site within 6 months, they have struggled to deploy the
                    incremental functionality to all VA medical facilities. For example:

                    	 The project team started working on the first increment of PECS in
                       October 2009. The team completed deployment of this increment in May
                       2011 (approximately 19 months later).
                    	 The project team started working on the first increment of MOCHA in
                       October 2009. The team completed deployment of this increment in
                       March 2012 (approximately 29 months later).
                    	 The project team started working on the second increment of MOCHA in
                       December 2009. The team anticipates completing deployment of this


VA Office of Inspector General                                                                       4
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


                        increment in February 2014 (more than 4 years after the increment was
                        started).

                    In November 2012, OIT published a new PMAS Guide. The revised
                    guidance now requires all active IT projects to include two increment types:
                    development and implementation. The development increment covers the
                    time needed to produce the software solution. The implementation
                    increment encompasses the time to fully deploy the new capability
                    nationwide. Each of the two increments has a duration of 6 months or less,
                    which essentially allows one year to develop and deploy new incremental
                    functionality.

                    Because three PRE increments took far more than a year to be deployed, they
                    would not have met the new requirements even if they had been in place at
                    the time the increments were underway. Although PRE has delivered
                    functionality resulting in improved patient safety, a great deal of
                    functionality remains to be delivered. As of May 31, 2013, the project team
                    had completed only 20 (30 percent) of 66 total PRE increments. Five other
                    increments were in progress. Given the slow deployment progress to date,
                    PRE faces the risk of not being able to deliver all agreed-upon functionality
                    by the planned project completion date in 2019.

Unreliable          PRE project managers could not provide accurate information at the
Expenditure         increment level on PRE expenditures to date. According to the PMAS
Tracking Risks
Cost Overruns
                    Guide, project managers are required to manage their financial resources by
                    increment. However, the PRE Program Manager told us that it is not
                    currently possible to accurately budget and track costs by increment. The
                    Program Manager can only estimate incremental costs because the PRE
                    contracts awarded several years ago were not increment-based; rather, they
                    were written at a program level. The Program Manager further explained
                    that actual costs are not entered into the PMAS Dashboard until they are
                    reconciled to invoices, which could take up to 2 years because the invoices
                    are not associated with specific increments.

                    According to the Program Manager, PRE officials are working to convert the
                    PRE contracts to make them increment-based contracts. However, the
                    conversions are not expected to be complete until February 2014. By not
                    capturing accurate budget and expenditure data, the PRE project
                    management team could not accurately report planned versus actual
                    incremental expenditures to allow VA and OIT leaders to assess PRE’s
                    progress.

                    The PRE Program Manager estimated that as of May 31, 2013, OIT had
                    spent approximately $47 of the total $53 million budgeted for PRE through
                    2014. Although the limited PRE functionality deployed to date has helped
                    improve patient safety, the project will have spent 100 percent of the funding
                    available for development by the end of calendar year 2013. Resources to

VA Office of Inspector General                                                                  5
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


                    accomplish development and deployment of the remaining 46 of the total
                    66 PRE increments remain in question.

Inadequate          PRE development and deployment was restarted at a time when PMAS was
Project             still too immature to ensure the oversight and accountability needed for
Oversight
                    project success. Due to inadequate guidance, planning, staffing, schedule
Structure
                    tracking, and independent reviews, OIT management has been ineffective in
                    keeping the PRE project on target in terms of schedule and cost, as well as
                    the functionality delivered.

Guidance            The project management team was required to manage PRE under PMAS
Lacking             before OIT had developed any detailed guidance on PMAS processes,
                    deliverables, management controls, and roles and responsibilities.* When the
                    Secretary of Veterans Affairs announced the implementation of PMAS on
                    June 19, 2009, it was in the preliminary stages of development. At that time,
                    PMAS was primarily the Assistant Secretary for Information and
                    Technology’s vision rather than a fully developed methodology for
                    managing IT development projects. As such, OIT launched PMAS before it
                    was well defined, and before it had developed the processes and management
                    controls needed to institute the new methodology.

                    On July 9, 2009, OIT published PMAS Instructions for Project Managers.
                    The intent of this document was to inform project managers of the steps they
                    needed to take to manage paused projects, along with the actions needed to
                    gain approval to restart their projects under PMAS. However, the document
                    fell short in several areas. For example, it did not provide a description of
                    PMAS and did not include information on PMAS processes because OIT had
                    not developed them. It also did not explain how to manage a project under
                    PMAS, how OIT would monitor projects, or the roles and responsibilities of
                    personnel responsible for managing and monitoring projects.

                    The Assistant Secretary for Information and Technology approved the restart
                    of the PRE program in October 2009. However, OIT did not publish the
                    PMAS Guide until March 2010 after the project was already well underway.
                    The PMAS Guide provided an overview of PMAS, described the PMAS
                    processes, and defined critical terms such as incremental deliverables. It
                    identified management controls for monitoring performance and ensuring
                    that PMAS procedures were followed. It also explained project management
                    and oversight roles and responsibilities.

Inadequate          Partly due to the lack of guidance, the project management team did not
Planning            adequately re-plan PRE to fit PMAS prior to the restart of the project.
Contributed to
Delays
                    According to the Program Manager, PRE had been in development for
                    several years prior to the inception of PMAS. PRE project managers

                    *
                    Audit of VA’s Project Management Accountability System Implementation, Report
                    No.10-03162-262, August 29, 2011.

VA Office of Inspector General                                                                  6
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


                    subsequently tried to deliver the capability that had been in development for
                    several years in the first few PRE increments. Consequently, the increments
                    were too big to deliver in a timely manner. This resulted in the project team
                    spending a substantial amount of time on testing and resolving defects,
                    which led to significant delays in initial operating capability (IOC) testing,
                    and ultimately delayed the start of national deployment.

                    For example, the Test Evaluation Summary for the first increment of
                    MOCHA indicated that Software Quality Assurance personnel tested
                    465 (98 percent) of 474 functional requirements from February 2009 (testing
                    started before the restart) to March 2011. PRE personnel and users
                    submitted a total of 503 remedy tickets for defects during testing of the
                    MOCHA application. A defect is a flaw in a component or a system that can
                    cause a failure to perform a required function. Test analysts categorized the
                    defects according to severity. The analysts categorized 45 of the 503 tickets
                    as critical defects and 150 as major defects. Resolution of 289 (57 percent)
                    of the 503 tickets required modifications, such as revised software code,
                    database, or system configuration.

                    In addition, project managers did not provide enough details to OIT leaders
                    in their restart plan to provide reasonable assurance that the incremental
                    delivery dates could be met. The plan stated that one of the re-planning
                    objectives was to support delivery of initial operating capability of PRE
                    components in manageable increments not to exceed 6 months. It also
                    provided the planned start and initial operating capability dates for the six
                    increments in the restart plan. However, it did not include important details
                    such as how many functional requirements needed to be tested in each
                    increment or dates when each increment would be nationally deployed.
                    Without such details, OIT leaders could not adequately assess whether the
                    plan was reasonable and achievable.

Insufficient        Project management staffing was insufficient for considerable periods of
Staffing            time throughout the life of the PRE project. The PMAS Guide states that
Affected
Progress
                    delivery success depends on resources being available before a project starts
                    each increment. It also states that increments will not start or maintain
                    execution unless they have the required resources.

                    Nevertheless, PRE’s component projects went through significant periods of
                    time without having a project manager to lead the projects. For example, the
                    PECS Project Manager position was vacant for 20 months between October
                    2009 and May 2013. Similarly, the MOCHA Project Manager position was
                    vacant for 14 months during that same period. These two projects also
                    experienced significant project manager turnover. PECS has had four
                    different project managers since PRE was restarted while MOCHA has had
                    three. The PRE Program Manager stated that the vacancies and lack of
                    leadership continuity negatively affected the PRE project. For example,
                    vacancies such as these make it more difficult to accomplish tasks such as

VA Office of Inspector General                                                                  7
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


                    delivering expected outcomes on time and within budget, resolving risks and
                    issues that could affect project success, and reporting project status data for
                    the PMAS Dashboard.

                    The vacancies and turnover increased the likelihood that the projects would
                    not achieve incremental delivery success. In addition, the Program Manager
                    stated that he relied on contractor personnel to help him manage the projects
                    when the project manager positions were vacant. This type of reliance places
                    the Government at risk of using contractor personnel to perform inherently
                    governmental functions.

Inadequate          PRE project managers reported incomplete schedule information on the
Schedule            PMAS Dashboard. According to OIT officials, at this point in time, project
Tracking
                    managers were only required to report how long it took to develop the new
                    functionality and enter into the initial operating capability phase for each
                    increment. Thus, project managers were meeting PMAS Dashboard
                    reporting requirements by reporting incomplete information because initially
                    OIT was not concerned with tracking how long it took to move from initial
                    operating capability to national deployment.

                    The PMAS Dashboard was designed to provide VA and OIT senior leaders
                    with real-time visibility of current project status information needed for
                    making timely and informed decisions on IT development projects. Each
                    month, project managers are required to enter updated information on the
                    status of their projects into the PMAS Dashboard.

                    Further, Office of Management and Budget (OMB) Circular A-11, Part 7,
                    Section 300, Planning, Budgeting, Acquisition, and Management of Capital
                    Assets, provides guidance and reporting requirements for major IT
                    development projects. It requires Federal agencies to institute performance
                    measures and management processes for monitoring and comparing planned
                    results against actual performance. OMB expects agencies to achieve, on
                    average, 90 percent of cost, schedule, and performance goals. An agency
                    must review all projects not achieving 90 percent of its goals to determine
                    whether it still needs the projects and what corrective actions, including
                    possible termination, should be taken. In addition, OMB’s Information
                    Technology Investment Baseline Management Policy (M-10-27), issued
                    June 28, 2010, requires agencies to measure performance against both the
                    current approved baseline and the original baseline.

                    Despite these requirements, the schedule information maintained on the
                    PMAS Dashboard did not accurately reflect program status because project
                    managers only reported partial schedule information. For example:

                       The PRE Program Manager reported that PRE started the first increment
                        of PECS in October 2009 and successfully completed delivery of the
                        required functionality at one site in March 2010. The project team

VA Office of Inspector General                                                                   8
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


                        completed national deployment of this version of PECS in May 2011.
                        However, the Program Manager did not report the approximately
                        14 months that it took to complete testing, address defects, and fully
                        deploy this application. As a result, although the Dashboard omitted a
                        major portion of the PECS software development project, it consistently
                        indicated that PRE successfully delivered the first increment of PECS
                        even though it had not yet been deployed.

                    	 Similarly, the PRE Program Manager reported that PRE started the first
                       increment of MOCHA in October 2009 and successfully completed
                       delivery of the required functionality at one site in June 2010. The
                       project team completed national deployment of this version of MOCHA
                       in March 2012. Once again, the Program Manager did not report the
                       approximately 21 months that it took to complete testing, address defects,
                       and fully deploy this application. Thus, the PMAS Dashboard also did
                       not capture a significant portion of the MOCHA software development
                       project, but continuously reported that PRE successfully delivered the
                       first increment of MOCHA even though it had not been deployed.

                    When the project management team realized that PRE would not be able to
                    deliver incremental functionality in a timely manner, the team convinced
                    OIT leadership to allow them to divide the PRE increments into
                    sub-increments that would be included in the PMAS Dashboard. OIT
                    approved this change in November 2010. Accordingly, the team divided
                    PRE increments into user functional test increments and operational
                    readiness increments. In addition, the PRE Program Manager started
                    reporting the status of these increments on the PMAS Dashboard. As a
                    result, PRE evolved to being composed of 48 increments.

                    This change, however, still did not capture a significant amount of time for
                    each increment—that is, the time to progress from testing to full deployment.
                    User functional testing captures the time it takes to complete development
                    and testing with the customer in a test environment. Operational readiness
                    captures the time needed to complete testing at six test sites using test
                    accounts. After these tests are completed, PRE officials test the functionality
                    at the same six test sites using production data in production accounts to
                    complete and exit IOC. After an increment exits IOC, PRE officials deploy
                    the software application to all 128 VA medical facilities. Consequently, the
                    PRE project management team did not account on the PMAS Dashboard for
                    the time needed to move from the end of operational readiness to IOC and
                    then to full deployment.

                    In November 2012, OIT published a new PMAS Guide in part to address this
                    issue. The guide states that projects in the active state include two increment
                    types: development and implementation. Each increment has a duration of
                    6 months or less. Development includes both software development and
                    achievement of IOC. Implementation includes full delivery of the new

VA Office of Inspector General                                                                   9
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


                    capability in a national deployment. To comply with the new guidance, the
                    PRE Program Manager added national deployment increments to the PMAS
                    Dashboard, which brought the total number of PRE increments accounted for
                    on the PMAS Dashboard to 66. The PRE Program Manager was still not
                    reporting the time it took to move PRE increments from IOC to full
                    deployment on the PMAS Dashboard because policies and procedures at the
                    time of our audit did not require reporting for the IOC period.

Project Status      PRE did not undergo periodic independent oversight reviews that could have
Reviews Not         helped the project stay on track. Although required by the PMAS Guide, OIT
Performed
                    did not perform a PMAS compliance review of the PRE project until
                    May 2011. It performed two additional compliance reviews in 2012. To
                    determine whether PRE complied with PMAS, the reviews mainly focused
                    on the completeness of required documentation, such as the project charter
                    and the project management plan. The reviews also noted, among other
                    things, that PRE did not have adequate resources for project management
                    and contracts associated with PRE were not negotiated to complement the
                    Agile development methodology. However, the compliance reviews did not
                    address whether the project was on track regarding cost, schedule, and
                    performance.

                    OIT also has not performed independent reviews of the data reported by the
                    PRE Program Manager on the PMAS Dashboard to ensure the data are
                    reliable and complete. In our August 2011 audit report on PMAS, we
                    indicated that the data maintained in the PMAS Dashboard were not reliable.
                    We concluded that OIT would not be able to realize the intended benefits of
                    the PMAS Dashboard until it establishes the procedures and controls needed
                    to ensure the data that project managers report in the PMAS Dashboard are
                    reliable and provide a complete picture of each project’s status. We
                    recommended OIT designate personnel and provide them with detailed
                    written procedures for performing periodic independent reviews of the
                    PMAS Dashboard to ensure data reliability and completeness.

                    The then Assistant Secretary for Information and Technology periodically
                    required project managers to provide status briefings to support his review of
                    selected IT development projects. In addition, the Assistant Secretary held
                    red and yellow flag meetings to resolve risks and issues negatively impacting
                    the PRE project. Nonetheless, these types of reviews do not diminish the
                    necessity of performing the periodic independent oversight reviews required
                    by the PMAS Guide.

                    In May 2013, OIT reported that it had taken the following corrective actions
                    to address this issue. The PMAS Business Office has started conducting
                    reviews of the PMAS Dashboard, primarily looking for inaccuracies in
                    PMAS schedule-related data. In addition, OIT has revised the standard
                    operating procedures for conducting PMAS compliance reviews.
                    Specifically, it added procedures for compliance reviews to evaluate project

VA Office of Inspector General                                                                 10
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


                    budget and expenditure information compared with percentage of project
                    completion, beginning with the third quarter of FY 2013.

Conclusion          OIT’s second attempt to develop and deploy PRE has not been effective.
                    Deployed PRE functionality has helped improve patient safety, which is a
                    step forward. However, project managers have not deployed planned
                    functionality to VA’s medical facilities in a timely manner. As of
                    May 31, 2013, the project team had completed only 20 (30 percent) of
                    66 total PRE increments.

                    Further, project managers have been unable to provide reliable cost
                    information at the increment level for the PRE increments completed to date.
                    The PRE Program Manager estimated that as of May 31, 2013, OIT had
                    spent approximately $47 of the total $53 million budgeted for PRE through
                    2014. At this spending rate, the project will expend 100 percent of the
                    funding available for development by the end of calendar year 2013.

                    PRE was restarted under PMAS, a project management discipline created in
                    June 2009 to stop VA’s succession of IT development failures. However,
                    OIT restarted PRE at a time when PMAS had not evolved to a point where it
                    could provide the oversight needed to ensure project success. As such, PRE
                    project management was challenged by a lack of guidance, planning,
                    staffing, schedule tracking, and project status reviews. Because of these
                    challenges, OIT is at an increased risk of not completing PRE and providing
                    the agreed-upon functionality on schedule and within budget by 2019 as
                    planned. Thus, future advances in patient safety are susceptible to being
                    behind schedule, which could adversely affect veterans who are prescribed
                    medications.

PRE Future          Going forward, plans for a shared VA and Department of Defense system
Uncertain Due       could eliminate entirely a future need for the PRE project. VA’s Exhibit
to iEHR Plans
                    300 submission for FY 2014 has proposed decreasing total project costs to
                    approximately $53 million by transferring the development of all future
                    pharmacy management functionality to the Integrated Electronic Health
                    Record (iEHR) project starting in FY 2014. The decision to transfer funding
                    and development of all remaining Pharmacy Reengineering functionality to
                    iEHR raises concerns, especially in light of the uncertainty surrounding the
                    interagency project. A lack of commitment to developing the joint iEHR
                    system has delayed progress.

                    In March 2011, the Secretaries of VA and Defense first announced they
                    would work together to develop the integrated system, with a goal of
                    implementing it throughout both departments by 2017. Pharmacy operations
                    would be included as one major component of iEHR. However, in
                    February 2013, the Secretaries announced their Departments were moving
                    away from developing a single integrated electronic health record and would
                    focus instead on modernizing their existing systems. The revised strategy

VA Office of Inspector General                                                                 11
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


                    was to achieve interoperability between their separate systems as a means of
                    achieving cost savings and meeting needs more quickly.

                    Ultimately, in April 2013, the Defense Secretary announced that his
                    Department was well behind VA in progress. As such, the Defense
                    Secretary halted all Defense efforts toward an iEHR to allow time to gain a
                    better understanding of where his Department was with regard to the
                    initiative. As Defense deliberates, VA continues with efforts to modernize
                    the Veterans Health Information Systems and Technology Architecture—its
                    “core” system for the iEHR initiative. Until a final decision is made and a
                    path forward is established for interagency cooperation on iEHR, successful
                    completion of the PRE initiative will continue to hang in the balance.
                    Moreover, stronger accountability, particularly over the PRE cost, schedule,
                    and scope for providing the remaining functionality, is needed prior to such a
                    transfer so that iEHR is not compromised from the outset by the same
                    challenges as PRE.

                    Recommendations

                    1.	 We recommended the Executive in Charge and Chief Information
                        Officer, Office of Information and Technology, ensure all of the time
                        needed to develop and deploy each remaining Pharmacy Reengineering
                        increment, to include the initial operating capability phase, is reported
                        and monitored on the Project Management Accountability System
                        Dashboard.

                    2.	 We recommended the Executive in Charge and Chief Information
                        Officer, Office of Information and Technology, develop guidance and a
                        reliable methodology for capturing and reporting planned and actual
                        project costs at the increment level on the Project Management
                        Accountability System Dashboard for the remaining increments of
                        Pharmacy Reengineering software development.

                    3.	 We recommended the Executive in Charge and Chief Information
                        Officer, Office of Information and Technology, establish guidance on
                        replanning software development projects that have been paused in
                        sufficient detail to demonstrate that increments of the projects are well
                        thought out and achievable.

                    4.	 We recommended the Executive in Charge and Chief Information
                        Officer, Office of Information and Technology, establish controls to
                        ensure information technology projects have sufficient leadership and
                        staff assigned throughout the project life cycle.

                    5.	 We recommended the Executive in Charge and Chief Information
                        Officer, Office of Information and Technology, establish plans on how
                        future Pharmacy Reengineering development will be funded until a


VA Office of Inspector General                                                                 12
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


                        decision is made regarding transferring this effort to the Integrated
                        Electronic Health Record project.

Management          The CIO concurred with our recommendations and provided a corrective
Comments and        action plan. We consider OIT’s corrective actions acceptable and will assess
OIG Response
                    their effectiveness during our PMAS follow-up audit. The CIO provided
                    technical comments for our consideration. Following is a summary of our
                    response to areas where we disagreed with the positions taken by the CIO.

                    Management Comment: The CIO asserted that many of our findings do
                    not recognize the difference between the time period covered by a PMAS
                    increment and the time period covered by a full software development cycle.
                    He also asserted that some of our measurements and analyses incorrectly
                    attribute time to increments that, in fact, belong to time periods between
                    increments, such as the time from IOC Entry to IOC Exit. Further, the CIO’s
                    position is that PRE has been very effective at completing deployment of
                    increments in less than 6 months. The challenges are occurring in the period
                    of IOC, which is before the deployment increment starts. Because current
                    policies and procedures do not include reporting for the IOC period, this time
                    period is not tracked on the PMAS Dashboard.

                    OIG Response: The OIG’s analysis in the report reflects the difference
                    between a PMAS increment and a full software development cycle.
                    Regardless, this initiative began in 2003 and was restarted in 2009. In spite
                    of development over the past 4 years, planned functionality has not been
                    fully deployed and cost information by increment is unreliable. We state that
                    OIT took approximately 19 and 29 months to deploy 2 of the initial PRE
                    increments. Moreover, OIT will take more than 4 years to deploy another
                    increment that it started in December 2009, assuming it meets a February
                    2014 deployment deadline. Current PMAS guidance requires development
                    and deployment to be completed in 1 year, with each increment having a
                    duration of 6 months or less.

                    Given that it took OIT more than a year to achieve IOC, the CIO presents an
                    inaccurate project status in asserting that PRE was effective in completing
                    deployment increments within 6 months. IT projects should account for all
                    of the time required to develop and deploy an increment of functionality.
                    The time period to accomplish IOC was not recorded on the PMAS
                    Dashboard. According to the CIO, OIT policies and procedures in existence
                    at the time of our audit did not require reporting the IOC period on the
                    PMAS Dashboard.

                    In our view, it is misleading for OIT and senior VA leadership to review a
                    PMAS Dashboard that omits the IOC phase and indicates a project increment
                    is on track because it delivered functionality to one site, although the
                    increment ultimately took several years to complete national deployment.
                    This was the case for two of the PRE increments we reviewed during our

VA Office of Inspector General                                                                 13
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


                    audit. The issue is not whether OIT was in compliance with the policies and
                    procedures current at the time of our audit. Rather, the issue is whether
                    OIT’s practices in managing PRE increments were sound. In our view, those
                    project management practices were not effective.

                    Management Comment: The CIO maintains that our findings do not take
                    into account deployment variances caused by the highly customized business
                    processes within the Veterans Health Administration. He also stated that the
                    PMAS definition of success is functionality delivered into the production
                    environment. The CIO said that project increments intentionally do not
                    account for IOC time, as this time varies significantly among increments,
                    depending on the given clinical environment.

                    OIG Response: We recognize and appreciate the complexities associated
                    with deploying incremental functionality within the Veterans Health
                    Administration’s varying clinical environments. However, we also believe
                    that if healthcare IT project increments are suitably scoped, OIT should be
                    able to complete development and deployment within the time frames
                    required by PMAS. The PMAS Guide does not make exceptions for
                    Veterans Health Administration initiatives based on their complexity. The
                    CIO stated in the response to our first recommendation that OIT has
                    modified PMAS Dashboard requirements, making it mandatory to track all
                    periods of time within a project including deployment, testing, and IOC. The
                    functionality for the PMAS Dashboard to track all periods of time within a
                    project will be available after implementation in February 2014. We believe
                    these corrective actions are steps in the right direction.

                    Management Comment: The CIO asserted that our findings did not take
                    into account that PMAS is an evolving set of policies, practices, and
                    methodologies, which have progressed through lessons learned and best
                    practices over the last 4 years. He stated that many of the OIG findings
                    reflect lapses in data collection and reporting, which were present in previous
                    iterations of PMAS.

                    OIG Response: We agree with the CIO’s position that PMAS has evolved
                    considerably over the last 4 years. Our goal was to present a fair and
                    unbiased assessment of PRE at the time of the audit. We objectively took
                    into account changes in PMAS policies, practices, and methodologies over
                    time. In our report we identified problems, but we also pointed out how OIT
                    has taken positive steps to improve PMAS from its inception to its state at
                    the time we completed our audit. There is still room for PMAS improvement
                    and a need for VA to ensure PMAS controls are adequate to oversee VA’s
                    development of IT investments, budgeted at $570 million for FY 2012 and
                    $519 million for FY 2013.




VA Office of Inspector General                                                                  14
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


                    Management Comment: Regarding PRE funding, the CIO asserted that
                    our report does not take into account factors in place to prioritize IT
                    development projects based on governance processes established across VA.

                    OIG Response: We do not believe that the funding prioritization process is
                    relevant to our report findings regarding PRE. At the time of our audit, VA
                    had made a decision to transfer funding and all remaining Pharmacy
                    Reengineering development to the iEHR project starting in FY 2014. Our
                    concern was that this was not a prudent decision in light of the uncertainty
                    surrounding the iEHR project at that time. The CIO’s response to our last
                    recommendation, outlining plans to move PRE forward as an independent
                    project instead of as part of iEHR, seems to be in line with our concern and
                    may resolve the issue.




VA Office of Inspector General                                                                 15
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


Appendix A          Background

Overview of         PMAS was designed as a project management discipline that provided
PMAS                incremental delivery of IT system functionality—tested and accepted by
                    customers—within established schedule and cost criteria. The PMAS
                    concept requires projects to deliver functional business capability in
                    increments of 6 months or less.

                    Customers certify incremental delivery of functionality on a customer
                    acceptance form. The Assistant Secretary for Information and Technology
                    can pause a project when it fails to deliver functionality as scheduled three
                    times. Once a project has been paused, no further development can occur
                    until it has been evaluated, re-planned, and approved to restart by the
                    Assistant Secretary for Information and Technology.

                    In an effort to make project managers and projects more successful, PMAS
                    relies on a number of organizations and tools such as the PMAS Business
                    Office, integrated project teams, risk management reporting, and the PMAS
                    Dashboard. The PMAS Business Office develops and maintains policy and
                    guidance, monitors the progress of all VA IT projects in PMAS, and
                    oversees PMAS Dashboard reporting. Integrated project teams are a group
                    of multi-disciplinary representatives working collaboratively to plan,
                    manage, and execute all activities required to deliver a project to the field.
                    Members of the team include representatives from organizations, disciplines,
                    and functions that have a stake or responsibility for the success of the
                    project.

                    To help manage risks, anyone associated with a project can raise a yellow
                    flag to identify project environment changes that have the potential to affect
                    project cost, schedule, quality, or scope significantly. Similarly, personnel
                    can raise a red flag to resolve issues or risks that will prevent projects from
                    moving forward and to require senior leadership intervention for resolution
                    to prevent a missed increment deliverable. The PMAS Dashboard was
                    intended for project managers to give senior leaders the visibility they need
                    into project status.

Overview of         VA planned for PRE to replace all legacy pharmacy applications with a
PRE                 system designed to meet VA’s current and future business needs. VA’s suite
                    of pharmacy applications—created in the 1980s using dated technology—
                    had become obsolete and expensive to maintain and enhance. VA expected
                    PRE to provide improved pharmacy operations, efficiencies in workflow and
                    processes for clinicians, and an increased ability to respond to patient safety
                    issues.

                    When VA launched PRE in March 2003, its plans called for initial PRE
                    increments to address critical patient safety issues by providing clinical
                    decision support tools to reduce medication errors and adverse drug events.

VA Office of Inspector General                                                                  16
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


                    VA expected the use of these tools to result in lower health care costs and
                    improved care for veterans. Subsequent PRE increments would address
                    items such as pharmaceutical inventory management, order dispensing, and
                    clinical monitoring.

                    In June 2009, the Secretary of Veterans Affairs announced that VA would
                    implement PMAS to improve management of VA’s IT development projects
                    and to stop the succession of project failures. VA also temporarily halted
                    PRE because it was not meeting cost and schedule goals. The Assistant
                    Secretary for Information and Technology approved the restart of PRE in
                    October 2009 after the PRE project management team created a new project
                    plan to meet PMAS requirements. VA expected to complete PRE in 2019 at
                    a total cost of approximately $164 million.

                    In FY 2013, VA proposed transferring the development of all remaining
                    pharmacy functionality to iEHR beginning in FY 2014, which could decrease
                    total project costs by $111 million to approximately $53 million. Under this
                    proposal, starting in FY 2014, the development of all remaining Pharmacy
                    Reengineering functionality, such as inventory management as well as any
                    remaining patient safety functionality, would be funded and developed under
                    iEHR.

Key                 PRE is composed of the following components:
Components
                    	 Pharmacy Enterprise Customization System—a system that allows
                       VA pharmacists to improve order checks as a result of customizing drug
                       information maintained by First Databank, a commercial off–the–shelf
                       database.

                    	 Medication Order Checking Healthcare Application—an application
                       that cross-checks drugs and dosing against the drug database for industry
                       updates. Among other things, it improves drug interaction, duplicate
                       therapy, maximum single dosage, and daily dosage order checks.

                    	 Pharmacy Product System—National and Local—drug database
                       management components that replace VA’s legacy National Drug File
                       Management System, which used a cumbersome, manual 30- to 60-day
                       process to find and add new drug information. The new system uses
                       automation to find, capture, and store drug information in a national
                       repository.

                    These components of PRE work together to provide VA’s clinicians and
                    pharmacists access to accurate and up-to-date medication order checks with
                    the ultimate goal of reducing adverse drug events and improving patient
                    safety.




VA Office of Inspector General                                                                 17
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


Appendix B          Scope and Methodology

Scope and           We conducted our audit work from October 2012 through December 2013.
Methodology         We focused our efforts on evaluating the actions OIT has taken to plan and
                    manage the active PRE increments—PECS, MOCHA, and Pharmacy
                    Product System–National—from October 2009 when PRE was restarted
                    through April 2013.

                    We reviewed Federal laws and regulations related to effective management
                    and oversight of IT development projects. We also reviewed OIT’s guidance
                    on IT project management to provide additional criteria for our audit. We
                    interviewed senior OIT officials, program and project managers, and
                    stakeholders to discuss planning, execution, accomplishments, obstacles
                    encountered, and concerns. We evaluated whether OIT was providing
                    incremental deliveries of functionality while staying within cost and schedule
                    goals by analyzing project documentation and the information reported on
                    the PMAS Dashboard. To determine whether PRE was improving patient
                    safety related to drug prescriptions, we obtained and analyzed historical data
                    on adverse drug event incidents and outcomes. Finally, we analyzed OIT’s
                    actions to provide effective oversight of the PRE software development
                    effort.

Data Reliability    To test the reliability of computer-processed data, we compared the
                    information provided on the PMAS Dashboard with information included in
                    supporting project documentation. We reviewed the data on the Dashboard
                    to determine whether they provided a valid and reliable representation of
                    project status. We concluded the data were not sufficiently reliable to
                    determine the actual performance of the PRE software development project.
                    As a result, we developed recommendations for improving the reliability of
                    data included in the PMAS Dashboard.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           audit objectives. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                 18
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


Appendix C          Status of PRE Increments

                    Table 2 provides the status of the PRE increments as of May 31, 2013.

                    PECS Pharmacy Enterprise Customization System
                    MOCHA Medication Order Checking Healthcare Application
                    PPS-N Pharmacy Product System–National
                    PPS-L Pharmacy Product System–Local


                 Table 2. Status of Increments Listed Under the PRE Project

                                             Complete
                                                                                         Not
                 Increments                    and        Complete In Progress
                                                                                       Started
                                             Deployed
 PRE Foundation                                   X
 PECS v 1.0                                       X
 PECS 2.0 User Functional Test                    X
 PECS 2.1 User Functional Test                    X
 PECS 2.1 Operational Readiness                   X
 MOCHA v 1.0                                      X
 MOCHA1 Enhancement1 User
                                                  X
 Functional Test
 MOCHA1 Enhancement1 Operational
                                                  X
 Readiness
 MOCHA1 Enhancement1 National
                                                  X
 Deployment
 PPS-N Data Migration 1.0 User
                                                  X
 Functional Test
 PPS-N 1.0 User Functional Test 1                 X
 PPS-N 1.0 User Functional Test 2                 X
 PPS-N Operational Readiness                      X
 PPS-N 1.0 National Deployment                    X
MOCHA v 2.0                                                    X                             
 MOCHA1 Enhancement 2 User
                                                               X                             
 Functional Test




VA Office of Inspector General                                                                   19
                                 Audit of VA’s Pharmacy Reengineering Software Development Project




                                             Complete
                                                                                         Not
                Increments                     and         Complete In Progress
                                                                                       Started
                                             Deployed
PECS 2.2 Operational Readiness                                 X                            
PECS 2.2 User Functional Test                                  X                            
PECS 3.0 User Functional Test                                  X                            
PECS 3.0 Operational Readiness                                 X                            
MOCHA 2 Initial Operating Capabilities                                       X              
PECS 2.2 National Deployment                                                 X              
MOCHA1 Enhancement 2 Operational
                                                                             X              
Readiness
MOCHA1 Enhancement 2B Operational
                                                                             X              
Readiness
PECS 4.0 User Functional Test                                                X              
MOCHA v2.0 National Deployment                                                            X
MOCHA1 Enhancement 2 National
                                                                                          X
Deployment
MOCHA1 Enhancement 2B National
                                                                                          X
Deployment
MOCHA2 Enhancement 1 User
                                                                                          X
Functional Test
MOCHA2 Enhancement 1 Operational
                                                                                          X
Readiness
MOCHA2 Enhancement 1 National
                                                                                          X
Deployment
MOCHA2 Enhancement 2 User
                                                                                          X
Functional Test
MOCHA2 Enhancement 2 Operational
                                                                                          X
Readiness
MOCHA2 Enhancement 2 National
                                                                                          X
Deployment
MOCHA2 Enhancement 3 User Functional
                                                                                          X
Test
MOCHA2 Enhancement 3 Operational
                                                                                          X
Readiness

VA Office of Inspector General                                                                   20
                                 Audit of VA’s Pharmacy Reengineering Software Development Project



                                             Complete
                                                                                         Not
                Increments                     and         Complete In Progress
                                                                                       Started
                                             Deployed
MOCHA2 Enhancement 3 National
                                                                                          X
Deployment
MOCHA2 Enhancement 4 User                                                                 X
Functional Test
MOCHA2 Enhancement 4 Operational
                                                                                          X
Readiness
MOCHA2 Enhancement 4 National
                                                                                          X
Deployment
PECS 3.0 National Deployment                                                              X
PECS 5.0 User Functional Test                                                             X
PECS 5.0 Operational Readiness                                                            X
PECS 5.0 National Deployment                                                              X
PECS 6.0 User Functional Test                                                             X
PECS 6.0 Operational Readiness                                                            X
PECS 6.0 National Deployment                                                              X
PPS-N 2.0 User Functional Test                                                            X
PPS-N 2.0 Operational Readiness                                                           X
PPS-N 2.0 National Deployment                                                             X
PPS-N 3.0 User Functional Test                                                            X
PPS-N 3.0 Operational Readiness                                                           X
PPS-N 3.0 National Deployment                                                             X
PPS-L 1.0 Tools User Functional Test                                                      X
PPS-L 1.0 Migration User
                                                                                          X
Functional Test 1
PPS-L 1.0 Sync User Functional Test 1                                                     X
PPS-L 1.0 Sync Operational Readiness 1                                                    X
PPS-L 1.0 National Deployment                                                             X
PPS-L 2.0 Tools User Functional Test 1                                                    X
PPS-L 2.0 Tools User Functional Test 2                                                    X
                                                                               



VA Office of Inspector General                                                                   21
                                 Audit of VA’s Pharmacy Reengineering Software Development Project




                                             Complete
                                                                                         Not
                Increments                     and         Complete In Progress
                                                                                       Started
                                             Deployed
PPS-L 2.0 Migration/Sync User
                                                                                          X
Functional Test
PPS-L 2.0 Migration/Sync Operational
                                                                                          X
Readiness
PPS-L 2.0 National Deployment                                                             X
PPS-L 3.0 Migration/Sync User
                                                                                          X
Functional Test
PPS-L3.0 Migration/Sync Operational
                                                                                          X
Readiness
PPS-L3.0 National Deployment                                                              X
 Source: Office of Information Technology




VA Office of Inspector General                                                                   22
                                         Audit of VA’s Pharmacy Reengineering Software Development Project


Appendix D                Executive in Charge and Chief Information Officer
                          Comments


               Department of
               Veterans Affairs
                                                               Memorandum
        Date:	        October 31, 2013

       From:	         Executive in Charge and Chief Information Officer, Office of Information and
                      Technology (005)

        Subj:	        Draft Report, Audit of the Pharmacy Reengineering (PRE) Software
                      Development Project, Project No. 2012-04536-R6-0220

         To:          Assistant Inspector General for Audits and Evaluations (52)

                 1. 	 The Office of Information and Technology (OIT) appreciates the opportunity to
                      review the subject Office of Inspector General (OIG) draft report. OIT began
                      implementing activities that address the five OIG recommendations prior to the
                      compilation of the subject draft report; as such, OIT concurs with the five OIG
                      recommendations. Several of the documented OIG findings do not reflect a full
                      understanding of the business practices within OIT; as such, OIT does not
                      concur with many of the OIG findings. The attached detailed comments are
                      submitted for inclusion in the final report.

                 2.   For all five recommendations, OIT has already evolved its development
                      processes and tracking to address the areas noted for improvement. Detailed
                      comments are provided in the attachment.

                 3. 	 For Recommendation 1, the Project Management Accountability System
                      (PMAS) Dashboard has already developed requirements to track IOC, testing,
                      and deployment, which will ensure monitoring within the PMAS Dashboard of
                      the time needed to develop and deploy IT software. OIT implemented all but
                      the IOC period tracking in Fiscal Year (FY) 2013.
                      a. 	 For Recommendation 2, a reliable methodology and guidance for
                           capturing and reporting project costs at the increment level was
                           established by OIT’s Product Development (PD) organization in FY13,
                           with 86% of eligible PD development contracts executing at the increment
                           level. PRE will adapt to this methodology and guidance in FY14.
                      b. 	 For Recommendation 3, OIT established guidance on planning well
                           thought-out and achievable software development project increments as
                           part of the PMAS Milestone review process. OIT published this guidance
                           in PMAS Guide 4.0 in November of 2012.
                      c. 	 For Recommendation 4, controls to ensure information technology
                           projects have sufficient leadership and staff assigned throughout the
                           lifecycle has already been established through leadership engagement in
                           the Integrated Project Team (IPT), Milestone, and competency Resource
                           Management Council (RMC) process. In the event that insufficient



VA Office of Inspector General                                                                          23
                                  Audit of VA’s Pharmacy Reengineering Software Development Project




                     resources are available, the Flag and Techstat processes allow for rapid
                     leadership awareness and engagement to resolve resource requirements.
                d. 	 For Recommendation 5, VA follows an established process to make
                     funding decisions. For future Pharmacy Reengineering development, VA
                     will follow the IT Planning, Prioritization, Budget, and Execution (IT
                     PPBE), IT Leadership Board (ITLB), and the Budget Operating Plan
                     (BOP) processes to be prioritized by the VA staff offices. This
                     prioritization process will ensure adequate plans for resources and
                     funding based on the transformation priorities of the Department.

            4. 
 Many of the documented OIG findings do not reflect a full understanding of the
                 increment based contracting development lifecycle, the variances in
                 deployment processes within the health care environment, the evolution of
                 PMAS guidance to reflect lessons learned, and the prioritization process for IT
                 appropriations and OIT development. OIT’s detailed comments are located in
                 the attachment.
                a. 	 Increment based development: Many of the findings do not recognize the
                     difference between the time period covered by a PMAS increment and the
                     time period covered by a full software development cycle. A full software
                     development cycle includes the entire period from planning to full
                     deployment at all sites; a PMAS increment covers a shorter period. In
                     addition, many of the measurements and analyses in the OIG draft report
                     incorrectly attribute time to increments that, in fact, belong to time periods
                     in between increments, such as the time from IOC Entry to IOC Exit. The
                     OIG draft report also contains date inaccuracies and misunderstandings
                     of the difference between increments that are completed in test
                     environment versus increments that are completed in a development
                     environment.
                b. 	 Health deployment variances: Due to the highly customized business
                     processes within VHA, a project team declares IOC once it releases
                     software into the production environment. The PMAS definition of success
                     is customer facing functionality delivered into the production environment.
                     The OIG documents PMAS failure when the PRE project national
                     deployment was not achieved within six months or less. The six month
                     software development increments intentionally do not account for the IOC
                     time, as it varies significantly amongst increments, depending on the
                     clinical environment.
                c. 	 PMAS evolution: PMAS is an evolving set of policies, practices, and
                     methodologies which have progressed through lessons learned and best
                     practices over the past four years. Many of the OIG findings reflect lapses
                     in data collection and reporting, which were present in the previous
                     iterations of PMAS, but PMAS has since matured to provide tailored
                     workflows and guidance for the software development lifecycle.
                d. 	 IT development prioritization: The OIG report does not account for the
                     factors in place to prioritize IT development based on governance
                     processes established across the department. The CIO or IT Chief




VA Office of Inspector General                                                                        24
                                 Audit of VA’s Pharmacy Reengineering Software Development Project




                     Financial Officer (CFO) chairs the prioritization governance meetings and
                     is responsible for executing funds based on prioritization guidance
                     provided by stakeholders across the department. This prioritization
                     process takes into account the various transformation initiatives across
                     the department and prioritizes funding based on impact and value to the
                     veteran.

            5. 	 Should you have any questions, please contact me at (202) 461-6910 or have
                 a member of your staff contact Lorraine Landfried, Deputy CIO for Product
                 Development, at 202-632-4347.




VA Office of Inspector General                                                                   25
                                     Audit of VA’s Pharmacy Reengineering Software Development Project


                                                                                                   Attachment

                                  Office of Information and Technology 

                      Comments on the Recommendations in OIG Draft Report,

                   Audit of the Pharmacy Reengineering Software Development Project
                                    (Project No. 2012-04536-R6-0220)

OIG Recommendation 1: Ensure all of the time needed to develop and deploy each remaining
Pharmacy Reengineering increment, to include the initial operating capability phase, is reported
and monitored on the Project Management Accountability System Dashboard.

OIT Comments: Concur. The PMAS Dashboard requirements have been modified to include increment
tracking of all periods of time within a project including deployment, testing, and IOC. The PMAS
Business Office (PBO) has begun the process to modify the PMAS Dashboard to include this functionality
and it will be implemented by February 2014. OIG Recommendation 1 may reflect an OIG
misunderstanding of PMAS in its current state. The current version of PMAS (4.0) already uses the
PMAS Dashboard to track the total time needed to deploy an increment. This change was implemented
under PMAS 4.0 as “implementation” increments which begin after IOC exit and after Milestone 2. All
current and past versions of PMAS and the PMAS Dashboard also track “development” increments.
These increments end either at IOC entry or when the customer signs off and does not want to proceed
to IOC entry without first working on a subsequent development increment. OIT believes that OIG
Recommendation 1 may be referring to the time between development increments and deployment
increments, which occurs between IOC Entry and IOC Exit, during which projects use a limited number of
sites for production testing prior to full deployment to all sites. For some PMAS projects, this period of
time consists of recursive testing and defect repair cycles until production testing reveals that the
functionality is ready for additional production sites. This IOC period is not tracked on the dashboard,
except in rare exceptions to the current PMAS 4.0 practices. The PMAS Dashboard has been enhanced
to track all periods of time within a project, including testing, and this functionality will be available after
the February 2014 implementation.

OIG Recommendation 2: Develop guidance and a reliable methodology for capturing and
reporting planned and actual project costs at the increment level on the Project Management
Accountability System Dashboard for the remaining increments of Pharmacy Reengineering
software development.

OIT Comments: Concur. Based on the draft report, it appears that OIG Recommendation 2 refers to
improving methodology to ensure that capturing and reporting planned and actual projects costs on the
PMAS Dashboard is done at an increment level, rather than using allocation mechanisms to subdivide
costs that are only reliable at a higher program or project level. It should be noted that, at present, costs
are often only known reliably at a project or program level. OIT is transitioning to framework which will
execute development contracts at the increment level. In FY13, 86% of eligible PD development
contracts were executed at the increment level. However, it will take time before legacy contracts with
only program level costs information expire and can be replaced with new contracts that require costs to
be tracked at the increment level. PRE will have contracts that are all increment-based by FY14. PRE
now meets monthly to reconcile and report actual costs to the PMAS Dashboard.

OIG Recommendation 3: Establish guidance on replanning software development projects that
have been paused in sufficient detail to demonstrate that increments of the projects are well
thought out and achievable.

OIT Comments: Concur. Prior to the release of the draft OIG report, OIT had established and
implemented the recommended guidance; OIT published in PMAS Guide 4.0 in November. The PRE
increments cited by OIG from 2009 and 2010 occurred during the preliminary stages of PMAS. As PRE
and PMAS have evolved, project teams have improved their ability to determine an achievable increment-
sized scope. Reviews now include function-point counts as well as an assessment of risks and
dependencies. OIT requires Milestone Reviews and pre-briefs for each increment; a project will not be

VA Office of Inspector General                                                                               26
                                    Audit of VA’s Pharmacy Reengineering Software Development Project


approved if the milestone dates, budget and technical approach are not achievable. Milestone Reviews
require senior management representation from each of the primary organizations under the CIO. Each
of these Milestone Reviews also involves not less than three levels of review before full approval: Level 1
IPT Approval, Level 2 Pre-brief Approval, and Level 3 Formal Milestone Brief Approval.


OIG Recommendation 4: Establish controls to ensure information technology projects have
sufficient leadership and staff assigned throughout the project life cycle.

OIT Comments: Concur. OIT established and implemented the recommended controls prior to the
release of the draft OIG report. OIT leaders are engaged in the Integrated Project Team (IPT), Milestone
Review, and competency Resource Management Council (RMC) processes. OIT has implemented the
red flag and Techstat processes to gain senior management assistance when a Project Manager has
resource requirements for an Active PMAS project that cannot be met through the Resource
Management Council (RMC). Red Flags serve to escalate the priority level of a resource request that
goes to the competency model for staffing. OIT now uses the competency model to prioritize and allocate
staffing for each project increment. Under this model, the project manager requests resources through the
Project Management Council (PMC) and RMC based on the resource requirements identified in their
project plans. Once the PMC approves and prioritizes a resource request, the RMC will work within the
competency organization to match resources to the highest priority needs.


OIG Recommendation 5: Establish plans on how future Pharmacy Reengineering development will
be funded until a decision is made regarding transferring this effort to the Integrated Electronic
Health Record project.

OIT Comments: Concur. OIT has already addressed funding prioritization through the the IT Planning,
Prioritization, Budget, and Execution (IT PPBE), IT Leadership Board (ITLB), and the Budget Operating
Plan (BOP) process. These processes ensure adequate plans for resources and funding based on the
transformation priorities of the department, and the prioritization input of the VA Staff offices. OIT merely
executes development funds in accordance with the prioritization guidance it receives from the IT PPBE,
ITLB, and BOP. Current plans do not call for Pharmacy Reengineering to be absorbed into iEHR in
FY14. Instead, under current plans, Pharmacy Reengineering will move forward as an independent
project. The FY14 funding request for Pharmacy Reengineering was submitted to the BOP. Depending on
the priority of the Pharmacy Reengineering project among other OIT projects, it may or may not be
funded in FY14. Finally, it is also likely that the FY14 Continuing Resolution, which provides significantly
reduced funding than was requested in the President’s FY 14 budget, may cause funding constraints that
undermine VA’s Pharmacy Reengineering planning efforts.




VA Office of Inspector General                                                                            27
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


Appendix E          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	               For more information about this report, please
                                                  contact the Office of Inspector General at
                                                  (202) 461-4720.

                      Acknowledgments	            Mario M. Carbone, Director
                                                  Clenes Duhon
                                                  Michael Jacobs
                                                  Jehri Lawson
                                                  Theresa Lospinoso
                                                  Kristin Nichols
                                                  Charanpreet Singh




VA Office of Inspector General                                                                 28
                                 Audit of VA’s Pharmacy Reengineering Software Development Project


Appendix F          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget


                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                 29
